<html>
<title> - WHISTLEBLOWER PROTECTIONS FOR GOVERNMENT CONTRACTORS</title>
<body><pre>[Senate Hearing 112-547]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-547

          WHISTLEBLOWER PROTECTIONS FOR GOVERNMENT CONTRACTORS

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2011

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE

72-560 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MARK L. PRYOR, Arkansas              SUSAN M. COLLINS, Maine
JON TESTER, Montana                  JOHN McCAIN, Arizona
MARK BEGICH, Alaska                  JERRY MORAN, Kansas
                     Margaret Daum, Staff Director
                Brian Callanan, Minority Staff Director
                       Kelsey Stroud, Chief Clerk

















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Portman..............................................     3

                               WITNESSES
                       Tuesday, December 6, 2011

Hon. Peggy E. Gustafson, Inspector General, U.S. Small Business 
  Administration.................................................     5
Marguerite C. Garrison, Deputy Inspector General for 
  Administrative Investigations, U.S. Department of Defense......     7
Walter L. Tamosaitis, Ph.D., URS Corporation, and Former Research 
  and Technology Manager, Waste Treatment Project, Hanford Waste 
  Treatment Plant................................................    17
Angela Canterbury, Director of Public Policy, Project on 
  Government Oversight...........................................    19

                     Alphabetical List of Witnesses

Canterbury, Angela:
    Testimony....................................................    19
    Prepared statement...........................................    67
Garrison, Marguerite C.:
    Testimony....................................................     7
    Prepared statement...........................................    33
Gustafson, Hon. Peggy E.:
    Testimony....................................................     5
    Prepared statement...........................................    29
Tamosaitis, Walter L. Ph.D.:
    Testimony....................................................    17
    Prepared statement...........................................    46

                                APPENDIX

Chart submitted by Senator McCaskill.............................    78
Letter with enclosure submitted by the Department of Energy......    79
Questions and Responses for the Record from:
    Ms. Gustafson................................................    83
    Ms. Garrison.................................................    85
    Ms. Canterbury...............................................    88

 
          WHISTLEBLOWER PROTECTIONS FOR GOVERNMENT CONTRACTORS

                              ----------                              


                       TUESDAY, DECEMBER 6, 2011

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Tester, and Portman.

             OPENING STATEMENT OF SENATOR McCASKILL

    Senator McCaskill. Good morning. Thank you all for being 
here today.
    We are going to hold a hearing today on whistleblower 
protections, and just briefly I wanted to talk overall about 
this subject matter because I think it is incredibly important. 
This is probably not the best attended hearing that will be 
held on the Hill today, but those of you that are here 
understand the importance of whistleblowers in terms of 
government oversight.
    I really do not think there is anything that is more 
important than whistleblowers because if you look around, it is 
very clear that whistleblowers have made a difference time and 
time again in terms of ferreting out serious and significant 
problems in the Federal Government. I can look no further than 
Arlington and Dover, and I can give many other examples where 
the reason that problems were identified and the reason we had 
the ability to go in and correct problems was because somebody 
who worked there told someone, someone who saw the problem said 
to themselves, ``I cannot deal with this anymore. Someone has 
to do something about this.'' And that is the best instincts, 
and those are the instincts that we must protect. And a 
whistleblower that has reprisals against them is something that 
we cannot stand for in this government. And that is what this 
hearing is about.
    I am proud to have been active in working in this area 
since the time I came to the Senate, and there are changes that 
we have been able to make in the law as it relates to 
whistleblower protections. There are now proposals that have 
been put forth both in the Senate and in the House, and I think 
that they are deficient in a major way. And the way I think 
they are deficient is because they do not fully address those 
people who work for contractors. And that is why we are here 
today.
    Now, there is a dirty little secret that people like to 
ignore, and, frankly, one of the reasons I voted against the 
Republican proposal last week on the extension of the payroll 
tax is because it was all about limiting Federal employees. It 
did not say a word about contractors. Anyone who thinks they 
are going to get at the problem of the growth of the Federal 
Government and the spending that is occurring in the Federal 
Government, if they think they can do that by leaving 
contractors out of the equation, they do not understand the 
Federal Government right now.
    Agency after agency, we have more contractors working for 
those agencies than we have Federal employees. We have more 
contractors working at many agencies than we have Federal 
employees. So if we are not including contractors in the 
protection of the whistleblower legislation, then we have a 
huge problem here. If the whistleblowers that work for 
contractors do not have the same protections as Federal 
employees, we are saying to contractors we do not think 
wrongdoing by you is that important. We do not think waste and 
fraud and abuse that occurs in a contract capacity is as 
important as waste or fraud or violating rules of regulations 
or the law, that somehow your sins are not as worthy of being 
reported and protection for that reporter than the sins that 
may be occurring by people who directly work for the Federal 
Government.
    So I think it is really important that we expand the 
protections for whistleblowers to people who work for 
contractors. We have been able to do that in two important 
respects. Senator Collins and I sponsored an amendment to the 
National Defense Authorization Act in 2008 that extends 
protections to whistleblowers for contractors that work for the 
Department of Defense. We also did the same thing for 
contractors that were receiving any of the money under the 
stimulus act.
    So it is not that this is without precedent. We have now 
done it for stimulus dollars, and we have done it for 
contractors that work for the Department of Defense (DOD). Why 
not the rest of government? Why is this important to do with 
contractors who work for DOD and not with contractors that work 
for the Department of Energy (DOE) or contractors that work for 
Homeland Security (DHS)? I think we have thousands, and 
thousands, and thousands.
    I will never forget the day when I asked the head of the 
Department of Homeland Security, Secretary Chertoff, when I 
first arrived at the Senate, how many contractors worked there. 
He had no idea. He had no idea how many contractors worked at 
the Department of Homeland Security. Suffice it to say, I 
believe that there are more contractors that work for the 
Department of Homeland Security than there are employees.
    So that is what this hearing is about. I have introduced 
legislation, along with my friend Jim Webb, that will expand 
the protection of whistleblowers to any whistleblower, whether 
they are an employee or whether they are a Federal contractor. 
And if there is a reason we should distinguish between the two, 
I hope someone today points it out because I would be anxious 
to hear what that reasoning is.
    So that is why we are here, and I think this will be a good 
hearing to explain the underpinnings of the legislation we have 
proposed, and I now will turn the microphone over to the 
Ranking Member of the Subcommittee, my friend, who has been a 
great Senator to work with on this Subcommittee, Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Chairman McCaskill. I 
appreciate it. And thanks to the witnesses for being here 
today, and thanks for holding this hearing on a truly important 
topic, particularly at a time when we are looking at bigger and 
bigger debt, $15 trillion now, and a deficit of about $1.3 
trillion this year. We need to focus on waste and mismanagement 
of taxpayer dollars more than ever. So it is an appropriate 
hearing.
    The stopping of wasteful spending and detecting it and 
preventing it ultimately is something that whistleblowers play 
a key role in. There are others as well. We need official 
oversight and monitoring, including by contracting officers in 
the agencies and Inspectors General and law enforcement 
authorities. But whistleblowers are often the eyes and ears for 
all of us and for the American taxpayer to be sure we are 
detecting, preventing, and stopping wasteful spending. And they 
often serve as a vital communication link, too, between what is 
really happening in the daily operations of major Federal 
programs and the policymakers here in Congress and in the 
Executive Branch who are responsible for oversight of these 
programs.
    The laws that are currently in place, whistleblower 
protection laws, are necessary to give individual employees 
that confidence to be able to speak up, to do the right thing 
without fear of retaliation. Today, as I counted, we have a 
patchwork of those kinds of protections. I think there are 19 
different laws, depending on how you count them, that deal with 
whistleblower protections. As I think we will hear this 
morning, we have found that some of them work better than 
others.
    The Whistleblower Protection Act of 1989 is sort of the 
standard protection for Federal Government employees who report 
misconduct, and in October I was pleased to join with my 
colleagues in this Subcommittee on both sides of the aisle to 
support legislation to strengthen that statute for government 
employees in significant ways, including broadening the scope 
of protected disclosures.
    But unlike these public sector protections, there is no 
standard whistleblower statute that covers private sector 
employees. Instead, Congress has taken a more piecemeal 
approach to that, creating whistleblower protections to address 
abuses in specific areas: Sarbanes-Oxley would be one in the 
securities and bank fraud areas; within specific departments 
such as the Department of Energy whistleblower provisions; or 
more recently to major new spending commitments. There were 
provisions, for instance, in the 2009 stimulus bill.
    I think it is fair to say that whistleblower protections 
for non-Federal employees are nowhere more necessary and 
appropriate than in Federal contracting. After all, that is the 
jurisdiction of this Subcommittee, so it is appropriate for us 
to take a look at this.
    We now spend over half a trillion dollars a year in 
contracts annually. Think about that. That is 15 percent of all 
Federal spending now goes into government contracting. That was 
about $539 billion last year.
    When we are dealing with taxpayer dollars of that 
magnitude, there can be no question that we have to take every 
effort to ensure good stewardship. The law provides a number of 
protections for contractor employees from the False Claims Act 
to civilian protections in the Federal Acquisition Regulation 
(FAR) 3.9, to defense contractor protections in Section 2409. I 
would be interested to hear from our witnesses today on how 
these existing protections for contractors have proven 
effective and where they might fall short.
    I am also very interested in exploring some of the unique 
issues raised by extension of these whistleblower protections 
to private sector employees such as contractor employees. One 
of the issues is the need to ensure that the law does not 
disrupt or undermine a company's own internal compliance and 
reporting processes. I do not think that would be in our 
interest.
    There was a recent Law Review article in the Harvard Law 
Review that notes that there is now a large body of research 
that shows that these internal whistleblowings can actually be 
more effective at stopping organizational wrongdoing and waste 
than the external reporting. So we do not want to disrupt the 
internal processes that are in place. And given our finite 
resources for enforcement and investigation, we want to 
encourage strong internal private compliance efforts to detect 
and correct wrongdoing.
    Ideally, I think the law should encourage firms to be self-
policing to the extent possible, and that means whistleblowing 
protections should extend to both the internal and external 
reporting of wrongdoing.
    Unfortunately, many whistleblower laws are one-sided in 
this respect. I give you as one example the securities 
whistleblower provisions in Dodd-Frank. It fails to protect 
employees who report security violations internally and instead 
offers large financial incentives to bypass those internal 
controls and immediately report out.
    The Federal Acquisition Regulation suffers, I think, from a 
similar flaw. It protects contractor employees who report to 
government officials but not those who choose to go through the 
internal chain of command.
    I think these are serious concerns and something I would 
like to hear more about today because I think they may permit 
some abuses to go undiscovered while actually impeding good-
faith internal compliance efforts. On this point, I think 
Senator McCaskill's whistleblower reform proposal gets it right 
by extending protections to employees who report misconduct to 
the management of their organization.
    Another important consideration is the need to ensure these 
rights are clear and well defined for both employers and 
employees. Would-be whistleblowers would be more likely to stay 
silent if they do not understand their rights, and by the same 
token, employers may be overlawyered or overburdened if they 
are exposed to unclear requirements or ambiguous liabilities in 
this area. For that reason, I think the parameters should be 
very carefully defined in law and carefully understood.
    So with that, I look forward to hearing from our witnesses 
on how best to protect contractor whistleblowers and how best 
to save taxpayer dollars.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Portman, and we will 
begin with our witnesses.
    First, we have Peg Gustafson, the Inspector General for the 
Small Business Administration and the Chair of the Legislation 
Committee of the Council of Inspectors General on Integrity and 
Efficiency (CIGIE). Prior to becoming Inspector General, Ms. 
Gustafson was my General Counsel, where she wisely advised me 
on oversight issues and helped to write the legislation that 
has strengthened the Offices of Inspectors General (OIG). From 
1997 to 2007, Ms. Gustafson was, in fact, General Counsel when 
I served as State Auditor of Missouri. It is great to see you, 
Peg.
    Marguerite Garrison is the Deputy Inspector General for 
Administrative Investigations at the Department of Defense. 
Prior to becoming the Deputy IG, Ms. Garrison was a career Army 
Military Police officer where she achieved the rank of Colonel. 
Before retiring from that position, Ms. Garrison served as the 
Chief of the initiatives group in the army where she identified 
and coordinated key issues of strategy, police, future 
concepts, and comprehensive army information requirements 
across the Army staff.
    It is the custom of this Subcommittee to swear in all 
witnesses that appear before us, so if you do not mind, I would 
ask you to stand and raise your hand. Do you swear that the 
testimony you will give before this Subcommittee is the truth, 
the whole truth, and nothing but the truth, so help you God?
    Ms. Gustafson. I do.
    Ms. Garrison. I do.
    Senator McCaskill. Thank you both.
    We will turn to you first, Ms. Gustafson, for your 
testimony.

  TESTIMONY OF HON. PEGGY E. GUSTAFSON,\1\ INSPECTOR GENERAL, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Ms. Gustafson. Madam Chairman, Ranking Member Portman, 
thank you very much for the opportunity to be here today and 
for your continued support of the work of Inspectors General. I 
am happy to be here in my capacity as Chair of the Legislation 
Committee for the Council of Inspectors General on Integrity 
and Efficiency, which I will also call ``CIGIE'' from now on in 
my testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gustafson appears in the appendix 
on page 29.
---------------------------------------------------------------------------
    Inspectors General are strongly supportive of essential 
safeguards for whistleblowers. Tools to incentivize and protect 
whistleblowers, whose actions are often brave and selfless, are 
encouraged and needed by Inspectors General.
    Offices of Inspectors General play an important role in 
investigating allegations brought forward by whistleblowers. 
Given our experience and resources, IGs are well positioned to 
receive information from whistleblowers, protect their 
confidentiality, and fully investigate the allegations in a 
fair, timely, and unbiased manner.
    The CIGIE Legislation Committee has sought to obtain an 
accurate sense of the IG community on certain whistleblower-
related legislative proposals by conducting several surveys 
within the past 2 years on matters involving whistleblowers.
    One such survey involves the perspective of IGs in agencies 
that were allocated funds under the American Recovery and 
Reinvestment Act (ARRA) or the stimulus act, which includes a 
provision aimed at protecting State and local government 
contractor whistleblowers.
    During the timeframe of February 2009 through April 2011, 
IGs who had responded to the survey had received 1,652 
complaints regarding ARRA transactions from employees of non-
Federal entities. The complaints related to approximately 323 
distinct ARRA transactions, meaning that multiple complaints 
had been received on some of these transactions. Of the 1,652 
complaints, 35 percent, or 580, resulted in the opening of an 
investigation, audit, or other Office of Inspector General 
review, and 150 others at the time of the survey were still 
being considered for IG action. Though the judicial and 
criminal investigative process can be lengthy and may still be 
ongoing in some of these cases, responding OIGs indicated that 
their investigations and reviews of the whistleblower 
complaints had resulted in recovery of approximately $1.85 
million as of April of this year.
    One of the key provisions of ARRA is Section 1553 that 
gives the authority of OIGs to investigate reprisal complaints 
from non-Federal employee whistleblowers. Of the surveyed IGs, 
8 of the OIGs had received a total of 18 reprisal complaints, 
and 11 of those had been accepted for investigation. The 
majority of IGs that had received these complaints had not 
experienced any problems or concerns with implementing Section 
1553 or in responding to the complainants' request to access 
the completed investigation file.
    As a community, IGs are always concerned about statutory 
requirements ordering them to conduct an investigation and 
statutory deadlines mandating completion of an investigation 
within a prescribed period of time. These mandates undermine 
the ability of IGs to independently set priorities and create 
the potential for finite resources to be diverted from other 
high-impact investigations that may better serve taxpayers' 
interest.
    By expanding the potential pool of non-Federal employee 
whistleblower complaints beyond ARRA to encompass all 
government contracts, grants, and payments, a significant 
impact on IG resources is anticipated. And, therefore, efforts 
to provide for IG discretion on whether to open an 
investigation or the timeframes will be crucial going forward 
in this endeavor.
    The ability of IGs to carry out their mission is dependent 
on the authority to access records pertinent to the 
investigation of the complaint. In instances of IGs having 
authority to access the records of State, local, and private 
sector employers who received ARRA funds, the IGs believe that 
Section 1515 of the Recovery Act serves as a viable model for 
giving IGs this access.
    One additional area of concern is the requirement that IGs 
disclose pending investigations of a whistleblower's reprisal 
complaint to the whistleblower's employer. There is a concern 
that these disclosure requirements could jeopardize the ability 
to obtain accurate information for the investigation and may 
jeopardize the whistleblower status with the employer if they 
were to figure out who the whistleblower was. Therefore, 
efforts to provide IGs with greater discretion on whether or 
when to disclose the investigation to the employer may assist 
OIG investigation efforts.
    CIGIE shares the perspective that IGs are well positioned 
to investigate these complaints but believes the scope of the 
legislative proposal does necessitate that IGs have the 
authority to access these records and give IGs the flexibility 
to conduct these investigations as balanced with the other IG 
priorities. We also believe the IGs' role should be narrow, 
where the IGs are conducting the investigation and reporting 
the findings to the agency officials authorized to make the 
ensuing decisions.
    I want to thank you again for the opportunity to speak with 
you and look forward to working with you going forward on this. 
Thanks.
    Senator McCaskill. Thank you, Ms. Gustafson. Ms. Garrison.

   TESTIMONY OF MARGUERITE C. GARRISON,\1\ DEPUTY INSPECTOR 
 GENERAL FOR ADMINISTRATIVE INVESTIGATIONS, U.S. DEPARTMENT OF 
                            DEFENSE

    Ms. Garrison. Madam Chairman and Ranking Member Portman, 
thank you for the opportunity to appear before you this morning 
to discuss whistleblower protections for government contractor 
employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Garrison appears in the appendix 
on page 33.
---------------------------------------------------------------------------
    The Inspector General Act of 1978, as amended, entrusts us 
with responsibility for improving the economy, efficiency, and 
effectiveness of the Department's operations through prevention 
and detection of fraud, waste, and mismanagement. To do so, the 
Department of Defense IG (DOD IG), conducts audits, 
evaluations, and investigations--many of which arise from 
disclosures brought to light by whistleblowers. Under the broad 
authority of the IG Act, we may investigate any matter of 
concern.
    DOD IG is somewhat unique among IG offices in that our 
responsibility to investigate whistleblower reprisal complaints 
derives not only from the IG Act but also from several other 
statutes.
    DOD IG has overall responsibility for the whistleblower 
protection program across the Department. A strong 
whistleblower protection program includes a confidential 
channel for the disclosure of wrongdoing, reliable protection 
against reprisal for making protected disclosures, and 
assurance that everyone concerned understands their rights and 
responsibilities under the law.
    Since the late 1980s, Congress has passed a series of laws 
protecting members of the Armed Forces, appropriated and non-
appropriated fund employees, and DOD contractor employees from 
reprisal. DOD IG has the authority to investigate these 
complaints and to oversee allegations conducted by Department 
of Defense component Inspectors General.
    Additionally, pursuant to the American Recovery and 
Reinvestment Act of 2009, DOD IG has the authority to 
investigate complaints of reprisal filed by employees of non-
Federal employers who make disclosures related to possible 
fraud, waste, or abuse of Recovery Act funds.
    Our authority with respect to DOD contractor employees is 
drawn from Title 10, United States Code, Section 2409, as 
amended in 2008. Since 1986 the statute has been amended on 
multiple occasions. The 2008 amendment expanded the types of 
protected disclosures and their authorized recipients. It also 
imposed additional deadlines for agency heads to resolve 
reprisal complaints. We welcomed those enhancements to 
protections for defense contractor whistleblowers.
    In 2008, we recommended legislation to require defense 
contractors to inform their employees in writing of their 
whistleblower rights under the statute. Our recommendation 
resulted in the inclusion of that requirement in the National 
Defense Authorization Act for Fiscal Year 2009.
    While the protections under Section 2409 have been 
strengthened over the years, in our experience there are 
certain features in the law that may have impacted the 
potential substantiation of some complaints. For example, the 
law fails to protect defense contractor employees from reprisal 
for reporting wrongdoing to company management. It also does 
not protect employees from actions directed by government 
officials. Nor does it protect employees of subcontractors. The 
lack of protections in these areas stands in contrast to other 
similar whistleblower protection statutes, such as the American 
Recovery and Reinvestment Act.
    We are proud of the role that Congress has assigned our 
agency to objectively and thoroughly investigate whistleblower 
reprisal complaints. For over 20 years, we have maintained a 
robust whistleblower protection program which has been a top 
priority of the DOD IG. Whistleblowers perform an important 
public service, often at great professional and personal risk, 
by exposing fraud, waste, and abuse within the programs and 
operations of the Department.
    In closing, I would like to thank the Subcommittee for the 
opportunity to discuss the important topic of whistleblower 
protections for government contractor employees. I look forward 
to answering your questions.
    Senator McCaskill. Thank you very much to both of you.
    Let me start with you, Ms. Gustafson. You talk in your 
testimony about resources and the fact that if we mandate an 
investigation to be completed within a certain period of time, 
that would--and I understand this--really be tough in terms of 
potential resources and understanding--as you well remember, 
there were all kinds of laws that said I had to do so many 
audits that we could not do because we did not have the 
personnel, so we had to prioritize based on where we thought 
risk was.
    The problem is that if we do not mandate the investigation 
and we do not mandate a time period for the investigation, I 
think we lose some of the public accountability.
    Have you given any thought and has the Council given any 
thought to maybe mandating some kind of public accountability 
as to why an investigation was not pursued?
    Ms. Gustafson. Well, I think that actually there has 
definitely been thought given to that, and I think actually S. 
241 has some provisions in there that the IGs are very 
supportive of, which is to say there is an investigation that 
needs to be done, there is some discretion given to the IGs 
with an accountability in the semiannual reports as to why an 
investigation has not been completed within a certain length of 
time. And there is also accountability built in when you have 
to report to the whistleblower if you have decided not to 
undertake that investigation.
    So I actually think that this is there and that is 
something the IG community is very supportive of. And it goes 
on to then give the whistleblower access to the court 
immediately after that so that the whistleblower's rights are 
not estopped by an IG. Some of these IG shops are three people, 
four people.
    Senator McCaskill. Right.
    Ms. Gustafson. And some are thousands of people. So, I 
think it is actually a schematic that has been devised to kind 
of allow for robust investigations when that can happen without 
estopping the whistleblower from going elsewhere in times when 
it simply cannot.
    Senator McCaskill. So do you think the way that S. 241 has 
been drafted, the legislation that we have drafted, do you 
think it gives enough discretion to the Inspectors General?
    Ms. Gustafson. Well, it gives complete discretion to the 
Inspectors General.
    Senator McCaskill. OK, good. I am confused, Ms. Garrison, 
about the number--since we changed the law and the standards, I 
am confused about the number of complaints that you have had as 
to whistleblower retaliation among the contractor community and 
the total investigated, and the fact that there have been none 
substantiated. But more troubling, whether or not they have 
been substantiated, you had the law changed in 2008. You had 44 
complaints in 2009, 51 in 2010, and 68 in 2011. And of all of 
those, there have only been five investigations. Why is that?
    Ms. Garrison. Well, many times when we look at the incoming 
complaint, there are several reasons for that, Madam Chairman. 
No. 1 is that the complaint is from a subcontractor and not a 
contractor employee. Another reason may be that the employee 
made the complaint to a company management official, not a 
government official.
    A third reason could be that the government official 
directed the unfavorable personnel action rather than the 
contractor because they saw that there was some deficiency in 
the performance of the employee.
    So those are some of the reasons why, but mostly because 
they have been subcontractor employees and not contractors.
    Senator McCaskill. OK. On the last point you made, I am 
confused. What was the last point, that----
    Ms. Garrison. The last point was that--excuse me, Madam 
Chairman.
    Senator McCaskill. That is OK.
    Ms. Garrison. The last point was that the unfavorable 
personnel action that was directed against the employee came as 
a result of a government official perceiving a deficiency in 
the duty performance of the individual and, therefore----
    Senator McCaskill. Isn't that always the defense?
    Ms. Garrison. Pardon me?
    Senator McCaskill. Isn't that what would have to be 
investigated? Isn't the government always going to say the 
reprisal was not because they were whistleblowers but because 
they were not a good employee?
    Ms. Garrison. No, the contractor is the one that let the 
employee go based upon what the government official said, and 
it was a perceived deficiency in the duty performance, so no. 
But in some cases, if we see that the government employee 
directed that unfavorable personnel action because of some 
disclosure that the employee made, then under the IG Act we 
have the authority to----
    Senator McCaskill. But how do you know that without 
investigating? How do you know that they were let go for 
performance as opposed to being a whistleblower if you never 
investigate it?
    Ms. Garrison. Well, we have conducted preliminary inquiries 
and looked at the basis of the fact of the termination of the 
employment, and based upon our initial inquiry, we have 
determined that the performance of that employee was deficient 
prior to the protected disclosure.
    Senator McCaskill. Oh, so you are saying that there is 
documented evidence that there were performance issues prior to 
any whistleblowing activity?
    Ms. Garrison. Yes.
    Senator McCaskill. OK. We were told in a briefing that DOD 
IG was also relying on the previous standards in the law as 
opposed to the standards that were put in place in 2008 based 
on the fact that the contract was executed before 2008. Is that 
correct?
    Ms. Garrison. That is correct.
    Senator McCaskill. On what legal basis are you all making 
that decision? Because this is not about protecting 
contractors. This is about protecting whistleblowers. And I do 
not know why the date of the contract execution would have 
legal bearing on what standard would be applied. Is that a 
lawyer inside the Department of Defense that is giving you that 
advice?
    Ms. Garrison. When we looked at the 1994 statute, we look 
at the date of the contract and when the contract was let. The 
provision that was in place at the time of the contract is what 
we are looking at. So, for example, we had a contract that was 
executed in 2007. The 2008 amendment was not in place at that 
time, so we look at the statute of 1994 to determine where we 
are going to head in that investigation or whether we are going 
to pursue it.
    Senator McCaskill. But why would you do that? On what legal 
basis? Because there is nothing that I am aware of in the law--
and I admit that I am one, a lawyer. I am not aware--since the 
law is focused on protecting the whistleblower, it has no 
bearing on not telling contractors what they can or cannot do. 
It is telling them that it is basically protecting a 
whistleblower. Why would the date of execution of the contract 
be the controlling date as opposed to the standard that we have 
put in the law going forward?
    Ms. Garrison. Well, it has been our experience thus far 
that the complaints we have received have been on contracts 
that are before two thousand----
    Senator McCaskill. You do not understand my question. On 
what legal basis are you--is there any--did you get a legal 
opinion from someone that told you that the old law needed to 
control protections for whistleblowers as opposed to the new 
law for any contract that had been executed before 2008 or 
2009?
    Ms. Garrison. I would like to take that one for the record.
    Senator McCaskill. That would be great. And if there was a 
legal opinion, I would love to review it. I would love to see 
it and get the basis for that, because I do not believe that is 
correct in the law. I think that the standard that should be 
used should apply across the board going forward, because this 
is not something that materially impacts the contract 
provisions for the contractor. It materially impacts the 
protections for the whistleblower. And I think that is a 
distinction with a real difference. So I would love to see 
where that decision was made and how it was made and get the 
backup documentation for it.
    Thank you, Ms. Garrison. Senator Portman.
    Senator Portman. Thank you, Madam Chairman, and thank you 
all for your testimony.
    Ms. Garrison, I was just curious about one thing you said 
in response to the Chair's questions about subcontractors and 
the reporting under--you said that many of the whistleblower 
complaints are subcontractors and, therefore, are not 
investigated. Should whistleblower protections extend to 
employees of subcontractors?
    Ms. Garrison. We see that S. 241 does extend it to 
subcontractors, and we see that as a positive, so yes.
    Senator Portman. OK. Who should these reports of wrongdoing 
be made to--the prime contractor first?
    Ms. Garrison. We also see in S. 241 that the disclosures 
have been expanded so that they can be made internally and that 
we could also be involved from a DOD IG's perspective.
    Senator Portman. On the internal disclosures, as I noted in 
my statement, I do think it is very important to have greater 
symmetry between the protections for external reporting and 
internal reporting, and the fact is that most whistleblowers 
report inside their organization first, and I think we should 
be encouraging them rather than, in effect, telling 
whistleblowers to circumvent the internal company procedure in 
order to be guaranteed protection.
    To what extend do you believe this gap in the law has 
prevented whistleblowers from coming forward or prevented 
substantiation of their reprisal allegations?
    Ms. Garrison. It is hard for us to speculate on the 
substantiation rates or what kind of effect that would have. 
However, we do believe with the passage of S. 241, since the 
whistleblower protections will be expanded, we may see an 
increase in the number of cases from subcontractor employees as 
long as we have a good education after the law is passed.
    Senator Portman. And what other tools do you think we 
should be using other than S. 241 to promote internal reporting 
and better self-regulating?
    Ms. Garrison. Well, as I said previously, the 2009 NDAA, 
made it mandatory that a written clause be included in all 
contracts and that the employers would have to inform their 
employees of all the whistleblower protections. We see that as 
one means of doing it. We also could have a communications 
campaign where we would have various posters about internal 
disclosures, and we would have to educate our contracting 
officer representatives (CORs) and our government contracting 
offices on how to expand those protections.
    Senator Portman. And, Ms. Gustafson, about internal 
reporting, do you have some thoughts on that? How do you 
believe this gap has affected folks coming forward and what 
tools can you see are necessary to promote more internal 
reporting and better self-regulating?
    Ms. Gustafson. I do think it is always kind of hard to know 
what the gap is because it is kind of what do we not know, but 
I will say that just from my experience as an Inspector 
General, to Ms. Garrison's point, letting people know what they 
can do and where they should go is always very helpful. I find 
that both internally as an Inspector General letting the SBA 
employees know that we are there and they should be telling us 
allegations of wrongdoing or things they see that might be 
fraud, waste, and abuse, and I would think that would be true 
across the board, be it a private employer or Federal 
contractor or any agencies.
    Senator Portman. I was curious. Ms. Garrison, in your 
testimony you talked about complaints of reprisal filed by 
members of our military where you are at DOD, and you said that 
those reprisal complaints far outnumber those filed by 
contractors--436 military whistleblower reprisal allegations in 
fiscal year 2011 compared to 68 defense contractor employee 
reprisal allegations in the same space of time.
    In your view, what accounts for this disparity?
    Ms. Garrison. Yes, Senator. We believe that the disparity 
is accounted for because we have done a great job of going out 
and advising the military population and various service IGs 
and Department of Defense component IGs about the whistleblower 
protections under 1034. That increases the number of, we 
believe, incoming complaints.
    We are not so sure that the contractors are as well 
informed about the whistleblower protections as our military 
personnel.
    Senator Portman. And can you comment on that across the 
agencies or, Ms. Gustafson, maybe you could comment on that? In 
other words, is this something that is just DOD or is this 
consistent, this disparity, across the civilian agencies?
    Ms. Gustafson. Well, I guess I would say I have no reason 
to think it would be just across DOD. I do not know why it 
would. And I do think that one of the issues maybe even with 
ARRA is, the stimulus bill went pretty far in applying 
whistleblower protections, but, of course, it had to be related 
to just ARRA funds. And so you really did have a relatively 
small subset of people who would be able to take advantage of 
those provisions when you compare it to all Federal moneys. And 
I think that may have had something of a tamping-down effect, 
too, because that is something that you would have to know in 
order to go forward. You have to know that the rights are 
there, know it is an ARRA project, and then know where to go.
    Senator Portman. On advance notice of whistleblower rights, 
getting back to contractors, Ms. Garrison, you said that you 
believe that some notification through internal means--you 
mentioned posters or other sort of campaigns to let folks know 
might be helpful, and you said that in your contracts you 
require that the private sector make those rights known. I 
think that is under Section 1034.
    I am just wondering if you all could both comment on this. 
Do you think the contractor workforce is sufficiently aware 
today of the protections under Section 2409 or the FAR 3.9? Do 
you think that is generally known among contractor employees?
    Ms. Gustafson. With all due respect, Senator, I really do 
not know the answer to that question, and I would hate to 
guess. That is something that we have not taken the temperature 
of the IG community on, so I really do not think I can speak to 
that. DOD may have a better view.
    Ms. Garrison. We believe the inclusion of the language in 
the DFARS has caused an increased awareness. However, I do not 
know how much of an increase that is across the Department.
    Senator Portman. And do you have other thoughts as to how 
that notification could be improved other than the thoughts you 
gave us earlier? Either one of you. Ms. Gustafson, has your 
group looked at this?
    Ms. Gustafson. We have not, Senator. So that is something 
we----
    Senator Portman. Is that something you could look at and 
get back to us on?
    Ms. Gustafson. We could certainly for the Subcommittee seek 
opinions of the IG community. That is something I would be 
happy to do, sure.
    Senator Portman. OK.
    With regard to the statute of limitations, I was curious to 
see that there are, in effect, sort of open rights here without 
a statutory period. No question we want a robust, effective 
whistleblower protection. We want it to be clear and well 
defined, as I said earlier. But I do not think we want these 
protections to be misused either.
    As I look at it--and tell me if I am wrong--it seems as 
though the statute of limitations is open. For instance, we 
would not want whistleblower reprisal allegations to serve as a 
pretext for an unrelated dispute with an employer--you talked a 
little about that earlier, Ms. Garrison--or as a defense 
against what were considered to be legitimate personnel 
actions. And often, there is a statute of limitations that is 
tolled upon discovery of the potential wrongdoing.
    My understanding is that the whistleblower protections in 
Section 1533--and this is in the American Recovery and 
Reinvestment Act, in the stimulus--contained no time limit 
within which to file an IG complaint to secure protection 
against reprisals, and there is no limit within which a civil 
action must be filed after the employee has exhausted the 
administrative remedies.
    I just wondered what you all thought about that. Do you 
think that is the right approach? Do you think there should be 
a statute of limitations both on the filing of the reprisal 
complaint and bringing a civil action?
    Ms. Gustafson. Senator Portman, I do not--in the survey of 
the IG community, I would note that nobody had brought that up 
as an issue, which I find, I guess, telling enough that I want 
to point out that nobody had brought up whether that was a 
concern. It may be that ARRA is so recent that it has not yet 
become a question. So it may be something moving forward, as it 
becomes not just about ARRA but whether S. 241 becomes the law 
of the land. We might have something we want to look at. But as 
of right now, even though I am a lawyer, quite frankly, I have 
not thought about that question, and so that might be something 
that we going forward would want to work on. Whether it would 
go back to a different whistleblower--refer back to a different 
whistleblower law already in place to have the kind of symmetry 
that you talked about where there is a uniformity among laws 
might be one alternative.
    Senator Portman. Would you be willing to have your group 
look at that, too, and report back to the Subcommittee what you 
think on the statute of limitations?
    Ms. Gustafson. I can certainly take the views of the IG 
community and get back to you.
    Senator Portman. And again, Section 1553 could become a 
template for further action, including some of the legislative 
proposals talked about today, so we would like to get your 
input on that.
    Ms. Gustafson. OK.
    Senator Portman. Any thoughts on that, Ms. Garrison?
    Ms. Garrison. Yes, Senator. On the statute of limitations, 
we found that a statute of limitations results in a more timely 
investigation, and that evidence can become stale, so the 
longer it takes to file the complaint, the more stale the 
evidence will become.
    Senator Portman. OK. Good. Thanks very much.
    Thanks, Madam Chairman.
    Senator McCaskill. So you are saying actually, Ms. 
Garrison, that a statute of limitations might help the strength 
of these cases in terms of our ability to investigate them 
because it provides some kind of deadline for everybody to 
either come forward or not come forward?
    Ms. Garrison. Yes, Madam Chairman.
    Senator McCaskill. I understand that.
    Welcome, Senator Tester. Good to see you.
    Senator Tester. Thank you, Madam Chairman.
    Senator McCaskill. Would you like to ask some questions of 
these witnesses?
    Senator Tester. I sure would.
    First of all, I want to express my appreciation for you and 
the Ranking Member holding this hearing. I appreciate your work 
that you have done on cutting waste, fraud, and abuse during 
your tenure here. As we look to balance the budget, this is the 
low-hanging fruit. We have just got to be able to make sure 
that we know about it so we can deal with it, and how we can 
enhance our ability to get the information about waste, fraud, 
and abuse is critically important. And I want to thank the 
Members for testifying. Sorry I was not here. I had a previous 
conflict.
    But I just want to ask either or both of you, just from 
your perspective, how important are whistleblowers when it 
comes to ferreting out----
    Ms. Gustafson. Well, I think it is very clear and is pretty 
much the unanimous opinion of the IG community that much of our 
work could not be done if we did not have people on the ground 
telling us or pointing us to issues that they see involving 
abuse or waste or fraud of Federal funds, be it a Federal 
contractor employee, somebody sitting at a desk at DHS or DOD, 
or just be it the Federal money that is flowing out and is 
eventually being used to build planes or build roads.
    The IG community is substantially far too small to be able 
to do that without having people who are firsthand witnesses to 
that tell us what is going on, so it is crucial.
    Senator Tester. Would you agree with that?
    Ms. Garrison. Yes, we would. We have found in our 
experience that internal allegations or reprisal complaints 
that come forward.
    Senator Tester. OK, good. So how can we enhance their 
ability to come forward? Because I am sure there is a lot that 
goes on that we do not know about, and so how can we enhance 
their ability to come forward with--and sometimes it is a fine 
line because you do not want to get in the situation where 
somebody is having a fight with somebody. But the other side of 
the coin is that, it is a significant problem, I think, and we 
need every attack avenue we can get.
    So how do we enhance whistleblowers to come forward? Any 
ideas?
    Ms. Gustafson. Well, first you have to make sure that if 
they do come forward, there will be some way for them to get 
restitution if they start getting reprised against and have an 
avenue to seek redress if somebody were to retaliate against 
them for coming forward. But, also, I do think a lot of it is 
education and letting them know what the avenues are to report 
these types of activities, be it internally, be it to the IG, 
be it to the RAT Board for the Recovery Act. That is crucial 
because a lot of times people, if they do not know where to go 
to begin with, they might be stymied from the get-go.
    Ms. Garrison. I agree with my colleague.
    Senator Tester. OK. Some have noted the low instance of 
fraud in the Recovery Act. Were there things in the Recovery 
Act that we should apply to other pieces of legislation that 
come to your mind that would prevent--or as far as that goes, 
is there anything we should be putting in pieces of legislation 
that would help prevent waste, fraud, and abuse?
    Ms. Gustafson. Well, there are a couple of provisions of 
the Recovery Act that I think were really new and that the 
Inspectors General have found to be tremendously useful. One is 
the level of transparency that has come about as a result of 
the reporting requirements and the very robust Web site that 
the RAT Board has put up where you really can see where the 
money was going and whether it is an ARRA project. Another are 
the whistleblower protections that were in there. I do think 
everybody has been very heartened by the low levels of fraud. I 
would hasten to add it is not over yet, but I think people have 
been surprised. And those have been two of the big changes, and 
so it would be--it seems clear that they have had some impact 
on why it is so.
    Senator Tester. OK. Anything to add to that?
    Ms. Garrison. No.
    Senator Tester. OK. I know your positions. I do not want 
you to incriminate yourselves. But compared to the media, 
compared to Inspectors General, compared to auditors, 
regulatory organizations, where would you stack whistleblowers 
in that as far as their ability to stop waste, fraud, and 
abuse? Inspectors General, No. 1, I am sure. [Laughter.]
    Ms. Gustafson. There are a lot of people who work for me 
that would be very disappointed if I did not say that. But, 
again, there is only so much that we can do. I can speak just, 
for example, for SBA. A lot of the risk that comes from my--and 
the Small Business Administration deals with the lending going 
on that is done under delegated authority. And, quite frankly, 
if we did not have a good relationship with lenders to tell us 
about those problems, for example, we simply would not know. So 
it is not even just about outsourcing. It is really just about 
the nature of the beast that a lot of this really happens once 
the money is finally done, and we are simply not there. So how 
about even footing?
    Senator Tester. All right. Even keel all the way across. 
How is that? Well, I want to thank you both for your testimony 
and for being here today.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Tester.
    I think that one of the things we have tried to get at in 
241--and I just want to put this on the record--kind of goes to 
the point you were making, Ms. Garrison, earlier about the 
government asking for something to happen with an employee as 
opposed to the contractor asking something to happen or the 
subcontractor asking something to happen with the employee. 
Right now the DOD provision just covers retaliation by the 
employer. It does not even cover retaliation by the government.
    So just so the example is made clear, let us say there is a 
contractor over in Afghanistan working on a highway, and they 
learn that somebody that is part of the military is involved in 
getting a kickback from some of the money we are paying for 
security. This is just a hypothetical example. If that 
government official finds out that this employee knows this, 
that government official could retaliate against that employee 
and it would not be covered in this law because it only covers 
action by their employer and not by the government, correct, in 
the DOD provision now?
    Ms. Garrison. Yes, ma'am.
    Senator McCaskill. Which we fix in 241.
    Ms. Garrison. Yes, ma'am.
    Senator McCaskill. So that the retaliation, no matter where 
it occurs, whether it occurs by the government or whether it 
occurs by the employer, be it a contractor or subcontractor, 
would all be covered. And I assume that you would agree that 
would be a major improvement in terms of us being able to 
protect whistleblowers.
    Ms. Garrison. Yes, Madam Chairman, we would agree.
    Senator McCaskill. OK, great. Thank you.
    I do not have anything else for this panel. Do you have 
anything else for this panel?
    Senator Portman. No. Thank you.
    Senator McCaskill. Thank you both very much. I appreciate 
you both being here. And please tell all the men and women that 
work for you that, as far as I am concerned--and I think many 
of the people who serve in an oversight capacity in the 
Senate--they are the unsung heroes in terms of us trying to get 
at the problems we have with the government spending money in 
ways it should not. So thank all of them for us, please.
    Ms. Gustafson. Thank you.
    Senator McCaskill. Thank you.
    Let me introduce this panel. First we have Dr. Walter 
Tamosaitis. Am I saying that right?
    Dr. Tamosaitis. That is very good.
    Senator McCaskill. Thank you. Dr. Tamosaitis was the 
Research and Technology Manager (R&T) and Assistant Chief 
Process Engineer for the Waste Treatment Project at the Hanford 
nuclear site in Washington State. Mr. Tamosaitis has a Ph.D. in 
systems engineering and systems management, and he has over 40 
years of experience. As a contractor employee at the Waste 
Treatment Project, Dr. Tamosaitis raised serious safety 
concerns about project testing.
    And Angela Canterbury is the Director of public policy for 
the Project on Government Oversight (POGO). In this capacity 
Ms. Canterbury has advanced public policies to combat 
corruption and promote openness and accountability in 
government. She has been an effective advocate for legislation 
that has improved the financial regulatory system, lobbying and 
congressional ethics rules, whistleblower protections, the 
Freedom of Information Act, and other open-government 
initiatives. Prior to joining POGO, Ms. Canterbury served as 
the Director of advocacy for Public Citizen's Congress Watch 
Division.
    As I said before, it is the custom of this Subcommittee to 
swear in our witnesses, so if you all would mind standing for 
me, raising your hand. Do you swear that the testimony you will 
give today before the Subcommittee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Dr. Tamosaitis. I do.
    Ms. Canterbury. I do.
    Senator McCaskill. Thank you both, and we will begin with 
you, Dr. Tamosaitis.
    Dr. Tamosaitis. I may go a tad more than 5 minutes.
    Senator McCaskill. That is fine.

 TESTIMONY OF WALTER L. TAMOSAITIS,\1\ PH.D., URS CORPORATION, 
  AND FORMER RESEARCH AND TECHNOLOGY MANAGER, WASTE TREATMENT 
                 PROJECT, HANFORD NUCLEAR SITE

    Dr. Tamosaitis. Good morning. My name is Walt Tamosaitis 
and I live in Richland, Washington. I am here speaking and 
representing myself today. Thank you for giving me this 
opportunity to provide this testimony. I also think it is a 
very important topic. As a contractor employee, I am living the 
experience today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tamosaitis appears in the 
appendix on page 46.
---------------------------------------------------------------------------
    I have a B.S., M.S., and Ph.D. in engineering, a 
certificate in business, and a professional engineering 
license, over 42 years industrial experience with DuPont and 
chemical plant operations with URS in DOE nuclear work.
    My last position was that of the Research & Technology 
Manager in the $13 billion Waste Treatment Plant (WTP) project 
in Hanford, Washington. It is known as the WTP or the VIT 
plant.
    The objective of the WTP is to put 56 million gallons of 
hazardous nuclear waste into a stable waste form to eliminate 
an environmental and safety threat. This material is in 177 
aging waste tanks that long ago have exceeded their design 
life. One-third of those tanks have already leaked. Any delay 
in startup or throughput of the WTP increases the chance of 
additional radioactive leaks to the environment.
    I am an advocate for the WTP, but it must be built to run 
safely and efficiently. While an advocate, I am opposed to 
corner cutting to earn fees and meet artificial schedules. This 
especially applies when the taxpayer cost is now over $13 
billion and predicted to go to around $20 billion. The original 
cost for this plant was $4.6 billion.
    The safety threats in the WTP are very serious. They 
include the trapping of explosive hydrogen gas in the waste 
which can lead to fires or an explosion; solids buildup, which 
can lead to a criticality; erosion and vessel and pipe 
pluggages that can render the plant totally inoperable. Several 
of these relate to mixing in the vessels. Because of the design 
of the plant, making changes later is not really an option and 
would be extremely costly, if it was even possible.
    Bechtel is the prime contractor in the WTP. The DOE 
contract gives them the design authority and the design agency 
responsibility for the project. This means Bechtel decides what 
needs to be done and how it will be done. They then get 
rewarded for cost and schedule performance, but will have no 
operating responsibility. Their focus is profits, not 
performance.
    At 7 a.m. on July 1, 2010, I was suddenly terminated from 
the WTP job and escorted off the premises after I continued to 
raise valid safety and technical concerns during a time when 
Bechtel was attempting to meet a June 30th deadline for closing 
the mixing issue.
    Meeting the June 30th deadline was very important because 
there was a $5 million award fee on the line for them, and 
there was also an additional $50 million in Congress that they 
were trying to get. And we have e-mails which indicate that 
they were fearful if they did not close M3, they would have 
lost all that money.
    Two days earlier, I submitted a list of nearly 50 technical 
issues, many of which included mixing concerns. On July 1, I 
went into work to finalize the details of my team's next 
assignment in WTP. I found my e-mail account had been turned 
off the night before. I was directed to go into an office and 
told, ``Hand over your badge, your BlackBerry, and your 
phone.'' I was then unceremoniously escorted off the WTP site. 
I was not allowed to talk to anyone and could not go to my 
office to get any of my personal belongings.
    My termination sent a chill through the WTP and the 
community. After termination from my WTP job, my employer, URS, 
assigned me to a basement office that housed two working 
copying machines. I have been sitting in a basement office now 
for nearly 16 months. I have little meaningful work and no 
contact from URS management. I have not been invited to any 
safety or staff meetings, which are the staple of normal 
operations.
    I went to the Department of Energy Employee Concerns 
Program immediately after this happened. I was told that they 
had not seen such a flagrant case of retaliation and that I 
should seek help outside, which they then gave me the name of a 
person and I did.
    I found no help for whistleblowers in the State of 
Washington, no help from the IG, and very little help from the 
Department of Labor (DOL). The DOE Inspector General was 
supposed to look into my termination but stopped as soon as 
they learned I had filed a claim with the DOL. After a year, 
the DOL time expired, and with no outcome I asked for my case 
to be moved to Federal court. Any information we received from 
the IG in DOL was so heavily redacted, it was virtually 
useless. It will be nearly 2 years before a trial first occurs.
    Meanwhile, Bechtel gets reimbursed for their efforts. For 
example, in their most recent survey, which they released last 
week, ``Addressing the Culture,'' it is estimated to have cost 
taxpayers nearly $2 million.
    I wrote a letter to the Defense Nuclear Facilities Safety 
Board (DNFSB) which prompted several investigations and a 
public hearing last October. The Defense Board has 
substantiated my technical and cultural concerns. The cultural 
issues in the WTP with Bechtel surround anyone who challenges 
Bechtel engineering, especially when cost and schedule is on 
the line and they can earn fee against it. Even their own 
survey released last week identified the problems of delay and 
working difficulties within the WTP.
    The contractors need regulation. Contractor whistleblowers 
and concerned employees need protection. With no whistleblower 
protection, the contractors do what they want. They actually 
make more money in DOE by not doing it right the first time. 
They get paid to build it, and then they get paid more to fix 
it, if it will run at all. And this cost the taxpayers billions 
at a time when our country's budget cannot afford it. The 
original WTP cost was about $4.6 billion, and now it is at over 
$13 billion in 10 years.
    I encourage you to pass laws to strengthen protection for 
whistleblowers. I encourage you to see that DOE contracts are 
reviewed with more rigor and end the DOE practice of appointing 
one company as the design authority and the design agency. I 
encourage you to eliminate taxpayer reimbursement to companies 
for defending improper practices. I also encourage you to 
increase the Defense Board's scope and to give them enforcement 
responsibility because without teeth they can be ignored.
    Despite my career being ended, I would do it again because 
it was the right thing to do. Given the tools, more people like 
me will stand up against waste, fraud, abuse, bad practices, 
and poor quality in government contracts.
    Thank you, and I will be glad to entertain any questions 
you may have.
    Senator McCaskill. Thank you, Dr. Tamosaitis. Ms. 
Canterbury.

 TESTIMONY OF ANGELA CANTERBURY,\1\ DIRECTOR OF PUBLIC POLICY, 
                PROJECT ON GOVERNMENT OVERSIGHT

    Ms. Canterbury. Thank you and good morning. I am the 
Director of Public Policy at the Project On Government 
Oversight a 30-year-old nonpartisan, independent watchdog that 
champions good government reforms.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Canterbury appears in the 
appendix on page 67.
---------------------------------------------------------------------------
    Whistleblowers are the guardians of the public trust and 
safety and among the best partners in crime fighting. It is 
well known that whistleblowers have saved countless lives and 
billions of taxpayer dollars. Studies have also shown that 
whistleblowers play a bigger role in exposing corporate fraud 
than auditors, government regulators, or the media.
    But perhaps the best illustration of how whistleblowers 
save taxpayer dollars is the more than $27 billion recovered 
since 1987 through the hugely successful False Claims Act 
(FCA). As you well know, the law not only acts as a deterrent 
to fraud, but also incentivizes whistleblowing through the 
financial awards and strong protections against retaliation.
    However, the FCA does not cover a host of other wrongdoing, 
in spite of the government's huge exposure to these risks given 
the amount of Federal dollars distributed to non-Federal 
entities. According to USAspending.gov, out of nearly $3.8 
trillion in the Federal budget, roughly half was spent on prime 
awards to contractors, grantees, States, and localities.
    A recent POGO report on the costs of contractors notes that 
this workforce now dwarfs the Federal employee workforce by 
approximately four-fold, and yet most of those on the front 
lines do not have protections to come forward when they witness 
waste, fraud, and abuse. The accountability loopholes are many 
in the patchwork of laws that protect only some Federal fund 
recipients and only under very limited circumstances.
    In addition to the FCA, there are also some extremely 
narrow protections under 42 U.S.C., Section 4705, but this is 
fairly flimsy policy, and few contractor employees can or 
should rely on those protections. However, in 2005, nuclear 
contractor employee rights were slightly upgraded. Also, 
progress has been made in closing other loopholes for the 
Department of Defense contractor whistleblowers.
    In 2009, the protected types of disclosures and recipients 
were expanded. However, these still lack some basic best 
practices found in other modern private sector whistleblower 
laws and, thus, have not yielded the kind of accountability 
that is needed. This is apparent in Iraq and Afghanistan where 
the Commission on Wartime Contracting recently estimated $31 to 
$60 billion has been lost to waste and fraud.
    However, there is a model whistleblower protection for 
Federal fund recipients. It simply needs to be expanded beyond 
its original scope. The American Recovery and Reinvestment Act 
of 2009 included excellent whistleblower protections for 
employees of entities funded by the Recovery Act. Notably, the 
stimulus spending so far has experienced extremely low 
incidence of fraud, as acknowledged here today and also by the 
GAO and others.
    The Non-Federal Employee Whistleblower Protection Act (WPA) 
of 2001, S. 241, builds on the success of the Recovery Act and 
mirrors many of its provisions. Introduced earlier this year by 
Madam Chair McCaskill, along with Senator Webb, S. 241 would 
bridge the wide gaps in current coverage and comprehensively 
apply best practice protections to employees of all entities 
that receive Federal funds. Like the Recovery Act, it would do 
the following:
    It would protect the most common disclosures made by 
employees, those made internally.
    It would cover disclosures of gross mismanagement, gross 
waste, substantial and specific to public health and safety, 
abuse of authority, or a violation of a law, rule, or 
regulation.
    It would require an Inspector General to review and report 
all claims of retaliation and investigate non-frivolous claims 
within a reasonable timeframe.
    It would provide effective remedies, including compensatory 
damages and enforcement when reprisal is confirmed.
    It would grant normal access to a jury trial and ensure 
whistleblowers do not get stuck in administrative limbo for 
longer than a year.
    In sum, S. 241 would substantially reduce the risks for 
whistleblowers and encourage more to come forward and create 
far more accountability to taxpayers. However, we do have a few 
suggested improvements.
    First, every Federal fund recipient should be required to 
post notices of their rights and remedies under this section at 
work sites.
    Second, we should require IGs to separately investigate the 
wrongdoing that the whistleblower exposed in the first place.
    Last, though it may be beyond the scope of this particular 
piece of legislation, we would like to see incentives for 
whistleblowing expanded to emulate the successful FCA award 
program.
    In these tough economic times, with a ballooning Federal 
deficit, it is just plain common sense to have more 
``deputies'' to safeguard taxpayer dollars and the public 
trust. This is why POGO and partners of ours in the Make It 
Safe Coalition strongly support better whistleblower 
protections for Federal contractors.
    We urge you to support enactment of S. 241, and I thank you 
for the opportunity to testify today.
    Senator McCaskill. Thank you very much, Ms. Canterbury.
    Let me start. I think it is important to focus in on the 
independent investigation of the Defense Nuclear Facilities 
Safety Board as it relates to your case, Dr. Tamosaitis. They 
reviewed 30,000 pages of documents and did 45 different witness 
interviews and then released a report that--and I believe that 
report was released in June of this year--that was highly 
critical of Bechtel and the management of safety at Hanford.
    According to this report, done by this independent review 
board, safety board, Bechtel had created a chilled atmosphere 
adverse to safety, and it specifically recommended that DOE 
investigate. They found the Energy Department and contractor 
management suppressed technical dissent, and I am quoting from 
their report.
    So I know that DOE kind of said, ``Well, since you talked 
to Labor, we are going to let Labor handle it.'' Have you 
circled back around with DOE since this report was issued to--
have you gotten any response from them about in light of what 
this independent review board found, did they feel any need to 
pick the mantle back up and look carefully at what happened 
surrounding the concerns you had raised and what happened to 
your employment as a result of that?
    Dr. Tamosaitis. Regarding me, no. They have announced that 
they are going to do another Health Safety Security (HSS) 
survey, but that is as much as I know of.
    Senator McCaskill. And I assume Bechtel is still in charge?
    Dr. Tamosaitis. Bechtel is still in charge of the project, 
yes, Senator.
    Senator McCaskill. And everyone sees you go to work in the 
basement with no windows?
    Dr. Tamosaitis. Yes, ma'am.
    Senator McCaskill. And knows that you are not allowed to 
work even though you are there onsite and getting paid?
    Dr. Tamosaitis. Correct.
    Senator McCaskill. So every day you are an example to all 
the workers there, whether they are Federal employees or 
Bechtel employees, ``Do not say anything, or you, too, will be 
banished to the basement''?
    Dr. Tamosaitis. Yes, Senator. Very directly. It is a very 
visible example of what happens if you speak up.
    Senator McCaskill. It is just unbelievable to me that we 
have allowed this to occur. And I know that you have a case in 
court, but it is----
    Dr. Tamosaitis. Yes, I want----
    Senator McCaskill. It would be one thing if this was an 
initial stage and you did not have this independent review. It 
would be another thing if this was, frankly, I mean, I am all 
about trying to save money, but this is about safety. And that 
is what is really of concern.
    Dr. Tamosaitis. It is safety and it is billions of dollars, 
and the reimbursement for Bechtel to be--while they pursue 
their defense, for example--I am requoting my verbal testimony, 
but the survey they released last week cost taxpayers nearly $2 
million.
    Senator McCaskill. I am speechless about the reality of you 
still going there every day as a walking billboard to everyone 
to keep their mouth shut, because that is essentially what you 
are.
    Dr. Tamosaitis. Yes, Senator, and that is why I took action 
because I did not want the people, especially the young 
engineers, to think that what happened to me was right or that 
they should manage that way.
    Senator McCaskill. Were you working--I assume you worked 
side by side with Federal employees at Hanford, at the waste 
treatment----
    Dr. Tamosaitis. Yes, ma'am.
    Senator McCaskill. Now, if a DOE employee reports waste of 
government funds, they are fully protected from retaliation; 
whereas, it is not clear that you as a contractor employee have 
that same protection.
    Dr. Tamosaitis. I am not sure what the DOE employees--what 
coverage they have. In the State of Washington, there is 
essentially no whistleblower remedies. The Hanford site, a 
Supreme Court decision in the State of Washington said that any 
Hanford whistleblower cases had to take the Federal route and 
go to the DOL.
    Senator McCaskill. Right.
    Dr. Tamosaitis. And then their year timed out, and now we 
have made a motion to move to Federal court. In Federal court, 
we have named DOE as a defendant because we have sufficient 
information that indicates that the Federal project manager 
played a role in my termination.
    Senator McCaskill. So is the government reimbursing Bechtel 
for the costs of the legal suit against you, do you know?
    Dr. Tamosaitis. Yes. It is my clear understanding that they 
are being reimbursed, and it is my understanding that if they 
are found guilty, they could have to repay. But if they are not 
found guilty, which means if they settle at the end of whatever 
period of time and admit no guilt, they are fully reimbursed. 
The survey, again----
    Senator McCaskill. For the settlement amount, too, or just 
for the costs of the defense; do you know?
    Dr. Tamosaitis. I do not know that.
    Senator McCaskill. Ms. Canterbury, do you know what the 
situation is? And is this common that the government is funding 
the defense for these cases across the board for contractors?
    Ms. Canterbury. It was my understanding that the change 
that was made in 2005 disallowed DOE to pay for the defense of 
contractors. So if that is ongoing, that is a problem.
    Senator McCaskill. So we need to look into that. We need to 
ask some significant questions of DOE about who is paying for 
the defense of this case and whether or not taxpayers are----
    Dr. Tamosaitis. Senator, it is my clear understanding they 
are being reimbursed for it.
    Senator McCaskill. I think this is an area that we need to 
get more information on, and I will task the staff to look at 
the funding of the defense of these lawsuits and the funding of 
any settlement. If the case is settled without an admission of 
guilt, which is the rule not the exception in most lawsuits, do 
the settlement monies come out of Bechtel's profits, or do they 
come out of the treasury? And I think it is important that we 
get to the bottom of that.
    Have you been able to look at the investigative files of 
the Department of Labor?
    Dr. Tamosaitis. They were heavily redacted. Very difficult 
to understand for the information that we received. My 
understanding is Bechtel and URS did not provide full 
information, and I do not have a summary of the totality of 
what they provided.
    Senator McCaskill. Do you know if the information that the 
Safety Defense Board looked at, do you know if it was as 
heavily redacted as what you have been able to see?
    Dr. Tamosaitis. No, Senator, I do not know what they looked 
at. I will say that the Defense Board was the only group that 
looked at the issue in a timely manner and identified the issue 
correctly.
    Senator McCaskill. So the administrative remedies that we 
have in the law for whistleblowers completely failed you?
    Dr. Tamosaitis. Yes, ma'am.
    Senator McCaskill. So you had the Safety Board that did the 
job they were supposed to do, and then you have had to turn to 
the courts because the administrative--which, of course, we 
have designed the administrative process in order to try to 
avoid the courts, and, clearly, that is not working out.
    Dr. Tamosaitis. Again, the administrative process 
internally, Bill Taylor of the Employee Concerns Program (ECP), 
told me to seek help outside, which I did.
    Senator McCaskill. So, in fact, the people who are tasked 
with the administrative process are the ones who advised you, 
Get out of Dodge, so to speak, and get into the civil court 
system because the administrative system is not going to be 
adequate in terms of addressing your problem?
    Dr. Tamosaitis. Correct. One hundred percent correct.
    Senator McCaskill. OK. Thank you very much. Senator 
Portman.
    Senator Portman. Thank you, Madam Chairman, and I 
appreciate the testimony.
    I wanted to followup, Ms. Canterbury, if I could, on some 
of your comments on the policy side, and I appreciate what you 
said about providing additional notification to private sector 
employees in response to my earlier question to the last panel 
and fleshing that out a little further.
    Let me hear from both of you, if you have answers to this. 
I am just trying to get at what works and what does not work 
with regard to existing protections for private sector--for 
Federal contractors, non-Federal employees.
    You have the False Claims Act, which you mentioned, and 
that gives whistleblowers the right to file the suits against 
contractors. ``Qui tam'' I think is the Latin for it, the qui 
tam suits, and then others for defrauding the government. So it 
can be a suit against contractors or anyone, right, for 
defrauding the government? And then there is the DOD statute we 
talked about earlier, Section 2409, and for the civilian 
agencies, FAR 3.9, which prohibits any contractor from 
``discharging, demoting, or otherwise discriminating against'' 
an employee for reprisals for reporting substantial violations 
of law related to a contract, and complaints under those 
provisions are brought to the IG, as we heard about earlier, of 
the relevant agency, so the Inspector General in this case of 
DOE.
    Just if you could tell us on the record, what do you see as 
the major gaps in these existing protections that have either 
prevented whistleblowers from coming forward or resulted in 
unprotected reprisals? And then, Ms. Canterbury, if you could, 
just give me any specific investigations of contractors that 
you believe would have been more effective with stronger 
whistleblower protections.
    Ms. Canterbury. Thank you, Senator, for that question. As I 
mentioned in my testimony, that particular statute, which is 
under the FAR Rule 3.9, is rather flimsy. Substantial 
violations of law are the only disclosures which are protected, 
and I think there is a lot of concern about what 
``substantial'' might be and in what context that might be 
substantiated.
    Beyond that, there are no time limitations on 
investigations that might be conducted by an IG, no time 
limitation on agency actions, so it is conceivable that there 
could be interminable limbo for a whistleblower who might try 
to rely on those protections. And as I said, I would not advise 
any contractor to do so.
    In terms of cases in which with better protections we might 
have had more accountability or the whistleblower might have 
found justice, it is very hard to say. In fact, most of the 
cases of which we are aware have come under the False Claims 
Act. Because of its underlying very strong public policy, that 
is the avenue through which most contractors have sought to 
bring to light instances of fraud or to seek protections from 
retaliation. And so those are the cases we are most familiar 
with, and I think that there are certainly many more who have 
not come forward at all, and billions in taxpayer dollars that 
have been wasted. I believe the public has been put in jeopardy 
in terms of health and safety because there has not been a 
strong public policy for whistleblowers.
    Senator Portman. Do you think as a general matter that 
Federal employees are more likely to step forward with reports 
of waste or abuse than non-Federal employees?
    Ms. Canterbury. I think that is true. We have had the 
Whistleblower Protection Enhancement Act in place for many 
years, but as you noted in your opening remarks, that law also 
is in desperate need of enhancement, and this Subcommittee has 
moved a bill that will do that, that will strengthen the 
Whistleblower Protection Act.
    So, yes, they do have more rights under the law currently 
as Federal employees than a non-Federal employee who may be 
sitting alongside doing the same type of work.
    Senator Portman. And one issue that you talked about and 
that we talked about earlier was just notifying non-Federal 
employees of their rights and being sure it is understood is 
the administrative procedure. I talked about the importance of 
having an internal process that works, which sometimes works 
and sometimes does not. And then we talked about just some of 
the statutory provisions that might be less than clear and that 
there is sort of a patchwork on the non-Federal side and that 
legislation that we did pass--I think it was unanimous out of 
this Subcommittee, in fact, on the Federal side----
    Ms. Canterbury. Yes.
    Senator Portman [continuing]. Helped to clean up the 
Federal side. But we have not done that on the non-Federal 
side.
    Dr. Tamosaitis, your contracting comments I found 
interesting, and I do not know as much about Hanford and how 
that cleanup is going. I have been involved in some other 
cleanups and found that if it is a cost-plus contract, 
sometimes it results in some of the concerns you raised, not 
specifically about safety but about the taxpayer dollars being 
wasted. Is that a cost-plus contract, do you know?
    Dr. Tamosaitis. The project, no. The project has award fees 
in it. It is not a cost-plus. It is a capital project. They 
have intermediate milestones and I will say incentives for 
meeting various targets.
    Senator Portman. Is it a fixed-cost contract then with 
awards? Would that be the right way to describe it?
    Dr. Tamosaitis. Well, no, I would say not fixed cost. It is 
going up by billions.
    Senator Portman. Yes, that is what it sounded like from 
what you said earlier.
    Dr. Tamosaitis. It is a capital project, and they continue 
to reforecast what the total price will be. Congress allots 
$690 million a year in funding, ``capital funding,'' and they 
are getting an additional $50 million, which Bechtel was after. 
If they had not closed the M3, the mixing issue, in June, the 
$50 million was in jeopardy. So this coming year they would 
have $740 million. They wanted to go for more money. But I do 
not know the status of that additional money.
    Senator Portman. Yes, well, I appreciate that, and I am not 
expecting you to be the lawyer on this, but I do think some of 
the waste that we hear about in this Subcommittee, talking 
about contracting generally and some of the things that you 
raised, are related to the incentives. As you said earlier, 
companies who are paid to build something and then when it does 
not work are paid to fix it would be another example of that, 
where the structure of the contract itself leads to some of 
these excessive taxpayer payments that you typically would not 
see in the private sector on a fixed-cost basis.
    Dr. Tamosaitis. In this contract, they will be gone when 
they push the button, basically right when they push the button 
to start it up. So they will have limited to no operating 
responsibility. There is a very limited performance 
requirement, but I will say in my view that continues to 
decrease as time goes on as to what the plan has to do over 
what period of time when they start it up. A major issue in my 
mind is the design authority/design agency confounding, 
deciding what needs to be done and how it needs to be done. I 
have used the term that is like putting the fox in the henhouse 
to guard it. They then have schedule and cost milestones they 
have to meet, and if you are deciding what needs to be done and 
how it needs to be done and it has to be done here, you are 
pretty well going to meet it. And then you are not going to be 
there to operate it.
    In answer to an earlier question on the adequacy of the 
whistleblower laws, I think the laws clearly have to be 
improved, stepped up. There is also for the management of the 
company, attention needs to be given on that side because what 
really provides a memory is publicity and money. So if they--I 
will say not so much the law may be written, sitting on a 
shelf. So the companies need to see that there is a sting to 
them and money will be memory as well as the bad publicity. And 
until the management of the companies see that, it is a 
continual uphill battle.
    Senator Portman. Well, thank you both for your testimony. I 
appreciate it.
    Senator McCaskill. It is interesting, the award fee stuff 
we saw over and over again in Iraq and Afghanistan where there 
had been terrible execution of the contracts and they got the 
performance fees. We did a whole hearing on it in the Armed 
Services Committee, and it was shocking to me. And basically 
the culture was, ``Well, we just give them those fees. No 
matter how good a job they did, just everybody knows they get 
them.'' I am, like, ``Well, why is it considered some reward 
then if you are giving them to folks who are not doing a good 
job?''
    Let me just finally say this: This has been a very helpful 
hearing. I think both Senator Portman and I have asked for 
additional information from the Inspectors General community 
and others in this hearing that we want to followup with. I 
hope that Senator Portman takes a hard look at Senate bill 241. 
I would love to have his help with it in making it the best we 
can possibly make it.
    The one thing I would say to you, Ms. Canterbury, we have 
this chart\1\ that we prepared for this hearing, and this is 
the various different provisions for whistleblowers in 
different parts of the law--who is protected, what disclosures 
are protected, who to disclose to, additional protections and 
remedies. And they are different. And one of the things I would 
really like to see us get done in S. 241 is to clean up this 
patchwork, because how in the world can we expect people to 
know what their rights are if it depends on which contract you 
are working under, where you are working, whether you are in 
stimulus dollars, or whether you are DOD? Our attempt to try to 
clean this up, all of this was done with good intentions. It is 
like our job training programs. We have 47, 48 of them, and 
every one of them was created by a Member of Congress that had 
good intentions in terms of job training. But we have created 
this labyrinth of job training that ultimately falls in terms 
of its effectiveness because of the weight and complexity of 
the myriad programs.
---------------------------------------------------------------------------
    \1\ The chart submitted by Senator McCaskill appears in the 
appendix on page 78.
---------------------------------------------------------------------------
    So any help that your organization can give us in terms of 
making sure that what we have done with S. 241 is to try to 
clean this up--and it is complicated by the fact that Issa's 
bill has a pilot program for contractors, which I think we know 
we do not need a pilot program. And Senator Akaka's bill does 
not include contractors at all. So we have right now in 
Congress three different pieces of legislation that are going 
to make this worse, not better. So hopefully we can all get 
together and try to clean this up because I think that is how 
we are going to get to more effective protection of 
whistleblowers and ultimately then more effective expenditure 
of Federal dollars.
    Thank you very much for being here. Thank you for attending 
the hearing. Thank you, Senator Portman.
    Ms. Canterbury. Thank you.
    Mr. Tamosaitis. Thank you.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              







<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
